OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/ALBANIA’S
ECONOMIC RESTRUCTURING
AND AGRICULTURE
DEVELOPMENT PROGRAM
AUDIT REPORT NO. 8-182-08-001-P
February 29, 2008




FRANKFURT, GERMANY 

      Office of Inspector General


February 29, 2008

MEMORANDUM

TO:    	       USAID/Albania Mission Director, Edward Landau
                               AS3.o




FROM: 	        Regional Inspector General, Frankfurt, Gerard M. Custer /s/

SUBJECT:	      Audit of USAID/Albania’s Economic Restructuring and Agriculture Development
               Program (Report Number 8-182-08-001-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report, making changes where appropriate, and have
included your comments in their entirety in appendix II.

The report contains one recommendation for corrective action. Based on actions taken to
address our concerns immediately subsequent to our fieldwork and the documents you
submitted as evidence that these actions had been taken, we consider that final action has been
taken on this recommendation.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


  Audit Objective ............................................................................................................... 2 


Audit Findings ................................................................................................................. 3 


     Mission Needs to Develop Appropriate 

     Targets for Its DCA Activities .................................................................................... 10 


Evaluation of Management Comments ....................................................................... 12 


Appendix I – Scope and Methodology ........................................................................ 13 


Appendix II – Management Comments ....................................................................... 15 

SUMMARY OF RESULTS

USAID/Albania’s Economic Restructuring and Agriculture Development Program (the
Program) seeks to support economic growth and poverty reduction in Albania by
promoting private enterprise development through training, technical assistance,
increased access to financial capital, and changes intended to help businesses compete
more effectively. This audit was designed to determine if the Program was achieving its
planned results and to assess the impact of those results. (See page 2.)

During the period from October 1, 2006 to September 30, 2007, the Program achieved
most, but not all, of its expected results1 for the activities tested. Of the 226 total
planned activities for this period, carried out under seven separate projects, 78 (35
percent) were selected for testing, with all but 2 of the activities found to have been fully
or substantially completed and achieving their planned results. On the basis of these
results, the Program was found to be achieving its overall objectives and benefiting a
number of businesses in Albania, particularly in certain targeted industries, by providing
valuable training, technical assistance, and improved access to financial capital, all of
which have resulted in improved quality control and marketing efforts, greater availability
of pertinent economic information, better access to financial capital for start-up and
expansion purposes, and increased domestic and regional (export) sales. (See page 3.)

The audit, however, identified activities under one project (Development Credit Authority
Project) that did not appear to be making satisfactory progress toward achieving the
level of results originally envisioned. Specifically, the project was not meeting its
planned targets relating to the volume of loans, resulting from USAID-sponsored loan
guarantees, being issued to micro, small, and medium-sized enterprises. The audit later
determined that the level of actual activity was, in fact, satisfactory, but that the projected
targets originally proposed by the implementing partner and approved by USAID/Albania
were overly optimistic. (See page 10.) To address this issue, the report contains one
recommendation for the mission to:

    	 Work with its implementing partner (Raiffesein Bank) to develop revised loan
       guarantee utilization targets that are consistent with industry standards to ensure
       that the project maintains reasonable and attainable targets for the remainder of
       the project period. (See page 11.)

USAID/Albania concurred with the recommendation and took immediate action to
address our concerns. Specifically, the Mission obtained and approved a set of revised
loan utilization targets from its implementer, which were reviewed by USAID’s Office of
Development Credit in Washington, DC, and determined to be reasonable given the
volume of loan activity in Albania. On the basis of this action, we consider final action to
have been taken on this recommendation upon issuance of this report. (See page 12.)

Management comments are included in their entirety in appendix II.

1
  “Results” refer primarily to the major activities identified in the contractors’ work plans. Since these work
plans typically specify a variety of activities along with expected deliverables, this evaluation focused on
verifying the completion of these activities and provision of planned deliverables to assess achievement of
planned results. The audit also relied on reported results data used to measure progress achieved under
selected impact-level performance indicators.


                                                                                                             1
BACKGROUND

Albania remains one of the poorest countries in Europe, with a per capita income among
the lowest in the Balkan region. Currently, small, and medium-sized enterprises are the
driving force for Albania’s economic growth, accounting for 99.5 percent of all private
enterprises and about 75 percent of total employment in the nonagricultural sector.
USAID/Albania’s Economic Restructuring and Agriculture Development Program (the
Program) seeks to promote sustainable economic growth in Albania by strengthening
the competitive capacity of private enterprises; increasing access to credit for small, and
medium-sized enterprises in the agricultural and nonagricultural sectors; and fostering a
policy environment that promotes business development, trade and private investment.

As of September 30, 2007, the Program’s portfolio consisted of seven Mission-managed
projects with a total life-of-project funding level of approximately $33 million, as shown
below in Table 1.

         Table 1: USAID/Albania’s Economic Restructuring and Agriculture 

              Development Program - Portfolio of Projects (Unaudited)

                                As of September 30, 2007 


                                                                     Lifetime       Start   End
              Project                        Objective                 Cost         Date    Date
                                                                     ($ millions)
 Small Business Credit and           Provide improved access
 Assistance (SBCA)                   to financial capital                  10.0     3/02    2/07
 Enterprise Development and          Accelerate Albania’s full
 Export Market Services (EDEM)       entry into the global market          10.4     9/03    9/08
 Serving Albanian Micro-             Develop micro, small, and
 Entrepreneurs                       medium enterprises                      6.4    6/98    12/07
 Central Bank Assistance             Strengthen capacity of
                                     financial institutions                  3.3    4/01    3/08
 Albanian Center for International   Provide information for
 Trade (ACIT)                        trade policy development                1.7    9/03    9/08
 Junior Achievement Enterprise       Implement enterprise
 Education (JA-YE)                   education programs                      0.4    6/06    5/08
 Development Credit Authorities      Provide improved access
 (DCA)                               to financial capital                    0.7    9/05    9/12
                                                             Total         32.9


AUDIT OBJECTIVE
As part of its annual audit plan, the Regional Inspector General/Frankfurt conducted this
audit to answer the following question:

   	 Did USAID/Albania’s Economic Restructuring and Agriculture Development
      Program achieve its planned results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.

                                                                                            2

AUDIT FINDINGS

During the period October 1, 2006, through September 30, 2007, USAID/Albania’s
Economic Restructuring and Agriculture Development Program (the Program) achieved
most, but not all, of its planned results for those activities selected for testing. Of the 226
total planned activities during this period, 78 (35 percent) were selected for testing, with
all but 2 of the activities determined to have been fully or substantially completed and
achieving their planned results. These activities were being carried out under seven
separate projects, six of which were determined to be achieving their overall objectives.

As a result of the successful implementation of many of the Program’s activities, USAID
has been able to make a positive contribution in promoting private enterprise
development in Albania and helping businesses, particularly in certain target industries,
become more competitive. Through the provision of valuable training and technical
assistance and improved access to financial capital, Program activities have resulted in
improved quality control and marketing efforts, greater availability of pertinent economic
information for policy decision-making, numerous loans to small businesses for start-up
and expansion purposes, and increased domestic and regional (export) sales. The
seven projects under which the program activities were carried out are discussed below.

(1) Small Business Credit and Assistance (SBCA) Project The objective of the SBCA
project, which ended in February 2007, was to provide financing (through micro-credit
loans and loan guarantees), direct counseling, and technical assistance to small and
medium-sized enterprises (SMEs) throughout Albania. It was also hoped that the project
would demonstrate to banks the potential profitability associated with lending to SMEs.

Of the 20 activities planned for fiscal year 2007, the audit reviewed 12 key activities and
verified that all had been successfully completed by the implementing partner and had
achieved their expected results. The project’s accomplishments included the following:

   	 Micro-loans: One of the key components of the project involved the provision of
      micro-loans to SMEs in targeted sectors to give these businesses access to
      capital they, in many cases, would normally not be able to obtain. During the
      initial quarter of fiscal year 2007 (since the project ended in February 2007), the
      implementing partner provided 21 loans with a value of $524,089 to businesses
      in the agribusiness sector; 50 loans totaling $1,105,890 to the nonagribusiness
      sector; and 13 loans totaling $423,981 to other sectors.

   	 Training and Technical Assistance: Training and technical assistance—covering
      topics such as new technology, management practices, and marketing
      techniques—were provided to 1,660 businesses, exceeding the planned target
      by about 42 percent, in an effort to increase production, enable businesses to
      meet international standards, and expand markets in targeted sectors.

At its conclusion, the project had exceeded its primary performance indicator targets, as
noted in Table 2, and reported impressive results which, among other things, involved
higher than expected loan activity and increases in sales to domestic and international
markets. Through its activities, the project has supported the development of a cadre of
businesses, some of which have become success stories and models for other
prospective Albanian entrepreneurs.

                                                                                             3
Table 2: SBCA Project – Planned and Actual Performance Results Data (unaudited)

              Indicators                   Expected           Actual           Difference
                                            Results           Results

Increase in Domestic Sales                   $4,800,000      $34,652,081        $29,852,081
Increase in Export Sales                       $220,000        $1,096,108          $876,108
Number of Loans Disbursed                           506             1,157                651
Value of Loans Disbursed to SMEs            $12,350,000      $15,498,689         $3,148,689
Average Loan Repayment Rate                        95%               99%                 4%




   Photograph of a proprietor, in front of his greenhouse, who received a micro loan under
   the SBCA project which enabled him to expand his fruit and vegetable business in
   Kashar, Albania (November 2007).


(2) Enterprise Development and Export Market Services (EDEM) Project This $10.4
million project was intended to (1) strengthen the capacity of the Albanian SMEs to
effectively compete in domestic and foreign markets and (2) accelerate the entry of
Albanian agricultural and manufactured exports into the global markets. Of the 74
planned activities, outlined in a work plan covering the 2-year period from October 1,
2006, to September 30, 2008, the audit team selected and reviewed 17 activities
scheduled to take place in fiscal year 2007 and verified that these activities were
completed in accordance with the implementing partner’s approved work plan and
achieved their expected results. Examples of these activities include the following:

                                                                                             4
	 International Tourism Fairs – To help increase the competitiveness of Albania’s
   tourism industry, which was viewed as an important catalyst for the country’s
   overall economic growth, several trade fairs were organized. In addition to
   identifying appropriate venues for these fairs, the implementer provided advice
   and technical support to prepare participants for the fairs and also organized
   logistical support. The project successfully organized two international tourism
   fairs; one in London, England, and another in Berlin, Germany.




          Tourism fair held in Berlin, Germany, under the EDEM Project.
          (Photo furnished by USAID/Albania Mission)

	 Regional Meetings – The project facilitated regional meetings to engage fruit and
   vegetable consolidators (responsible for consolidating agricultural produce for
   exporters), food processing companies, and olive oil processors with their
   transportation and logistical partners involved in product delivery. The project
   also invited, arranged, and facilitated 11 trade missions aimed at establishing
   direct trade links between domestic producers and international importers of
   fresh fruits, vegetables, herbs, and spices.




            Business-to-business meeting in Montenegro, arranged under
            the EDEM project, to bring business partners together. (Photo
            furnished by USAID/Albania Mission)

                                                                                  5
   	 Technical Assistance to Promote Olive Oil Exports – To promote the export of
      Albanian olive oil to regional and global markets, the project provided technical
      training to several local olive oil producers to improve the marketing of their
      products to Croatian buyers. Technical assistance was also provided to assist
      domestic producers in the presentation of their products at international trade
      fairs, labeling, communication with prospective foreign buyers, and the
      development of concepts for logos and brand names.




             Bottles of olive oil being prepared for export by an Albanian business
             that was receiving technical assistance under the EDEM project.
             (Photo furnished by USAID/Albania Mission)

This project, scheduled to end in September 2008, was determined to be making
satisfactory progress toward achieving its overall objectives, and was on track to meet its
strategic objective performance indicator targets by the end of the project. As of
September 30, 2007, the project had already accomplished 91 percent of its target for
measuring the number of private enterprises benefiting directly from USAID assistance
and 96 percent of its target for tracking the increases in sales of products and services in
the domestic market. Thanks to its activities, the Project has increased sales among the
numerous firms it has supported in each of the sectors targeted for assistance (e.g.,
tourism; perishable foods such as herbs and spices; processed foods such as olive oil;
fruits and vegetables; and processed meats).

(3) Serving Albanian Micro-entrepreneurs Project. This project was designed to assist
Albanian SMEs by improving their access to credit from nonbank sources. The
implementing partner, Opportunity International, established an Albanian noncommercial
financial institution, Partneri Shqiptar per Mirokredi, or Albanian Partners in Microcredit,
to provide loans to urban and rural micro enterprises (up to $7,000) and SMEs (up to
$25,000) in addition to offering basic business consulting services. This project
consisted of 37 planned activities, of which 16 were selected for review and were
determined to have been either fully or substantially completed. The following are
examples of some of the project’s accomplishments:



                                                                                          6
      Opening of New Branch Offices – As of September 30, 2007, three branch loan
       offices had been opened (a total of four were planned), with the fourth office
       expected to be opened by the end of the project in December 2007.

      Active Customers – The project had achieved an increase of 12,755 active small
       loan customers, or 91 percent of its planned target.

      Technical Training – A variety of technical training classes were held for Partneri
       Shqiptar per Mirokredi’s staff at five of its branches to strengthen the financial
       institution’s ability to serve clients in the agricultural sector.




       Loan officers receiving technical training on providing loans to micro and small
       businesses under USAID’s Serving Albanian Micro-entrepreneurs Project.


Through its support under the project and continued loan activities, Partneri Shqiptar per
Mirokredi has become one of the Program’s success stories, with the financial institution
not only exceeding its targets with regard to loan activity, but also achieving operational
and financial self-sufficiency. The institution received an A+ rating as a microfinance
institution from the Consultative Group to Assist the Poor, an official rater based in Italy.

(4) Central Bank Assistance Project. The primary objective of this project, implemented
by Financial Services Volunteer Corps, is to strengthen the capacity of the Central Bank
of Albania to supervise banks and regulate the financial sector, as well as improve the
Bank’s internal organization and operations so as to increase public confidence in the
banking system and increase the flow of capital to the private sector. The project also
focused on helping the Albanian Deposit Insurance Agency strengthen its capacity to (1)
manage payouts when a bank fails; (2) create a multiyear financing plan and a financial
projections model to oversee the growth of the insurance fund over time; and (3) monitor
its financial sustainability.

Of the 31 proposed training activities for the project period, extending from June 1, 2005
through March 31, 2008, the implementing partner successfully completed 29, including
15 scheduled for fiscal year 2007. The remaining two activities are expected to be
completed prior to the end of the project in 2008.
                                                                                           7
     Future graduates of Albania’s first actuarial training activity, one of a series of training
     activities held in Tirana and sponsored by USAID under its Central Bank Assistance
     Project (November 2007).

(5) Albanian Center for International Trade (ACIT) Project To promote the development
and quality of Albania’s trade policies and increase the participation of stakeholders in
the trade policymaking process, USAID sponsored the establishment of the ACIT and
provided assistance to an Albanian nongovernmental organization, the Institute for
Contemporary Studies, to operate and carry out the functions of ACIT. ACIT’s activities
are aimed at (1) increasing access to pertinent economic information for all
stakeholders; (2) reviewing different options by performing analyses and research on
various trade-related issues; and (3) promoting and facilitating discussion and debate
among stakeholders in the trade policymaking process. The project successfully
completed all 9 of the activities selected for testing (out of a total of 18) from the
implementer’s fiscal year 2007 work plan. Examples of these activities include:

   	 Roundtable Discussions on Trade Policies – ACIT promoted participation of all
      stakeholders in the trade policymaking process and facilitated a series of public
      debates and three roundtable discussions. In November 2006, for example,
      ACIT organized a workshop at which participants discussed the benefits of
      developing an online trade information system through which users could access
      the latest trade developments, policies, and tools.

   	 Business Advisory Council – One of the project’s main achievements has been
      the formation of the Business Advisory Council, a high-level national board that
      brings together government officials and business representatives.

   	 Development of Industry Web sites – Support to ACIT also included the
      establishment and maintenance of three Web sites: one for the footwear sector
      and two for the agro-business industry. By establishing these Web sites, the
      project has enabled interested people (prospective users) in these industries to
      have increased access to pertinent trade information and data.
                                                                                                    8
   Visitors to the USAID-supported Albanian Center for International Trade, in Tirana,
   browse through Web sites established to enable users to gain access to a host of
   economic trade information and data. (Photo furnished by USAID/Albania Mission)


(6) Junior Achievement Enterprise Education Project A key component of Albania’s
growth and poverty reduction strategy is to promote entrepreneurial training among
Albania’s youth by developing and refining a variety of educational programs that are
integrated into all four levels of Albania’s education system (primary, lower secondary,
upper secondary, and postsecondary). These educational programs are intended to
complement the standard curriculum at Albanian schools and are designed to educate
students on such areas as entrepreneurship, economic literacy, and business skills, so
that students will possess the necessary skills to manage their own businesses.

For fiscal year 2007, the implementing partner’s work plan listed a total of 23 planned
activities, of which 9 were selected for testing and verified to have been completed as
specified in the plan. One notable accomplishment during the period involved the
signing of a Memorandum of Understanding with the Ministry of Education as part of
ongoing efforts to establish stronger ties with the Government of Albania, thus
establishing the Government’s endorsement of the project. In addition, the project has
made positive progress in its efforts to become financially self-sustaining, having
obtained donations (cash and in-kind) from a variety of sources, including an
international financial institution and a number of local companies.

Although USAID/Albania and its implementing partners either achieved or were making
satisfactory progress toward achieving most of their planned results for fiscal year 2007,
activities under one of the Program’s seven projects did not appear to be making
satisfactory progress. Details concerning this project are discussed below.



                                                                                         9
Mission Needs to Develop Appropriate
Targets for Its DCA Activities

 Summary: One of the Program’s projects, the Development Credit Authority (DCA)
 Project, did not appear to be achieving its expected results for 2007—the project’s
 second year of operations—based on the project’s inability to meet its planned targets
 for measuring loans to SMEs. After further review, it was determined that the initial
 set of loan utilization targets set by the project’s implementing partner and approved
 by USAID/Albania were overly aggressive and exceeded industry standards. USAID
 policy guidance provides tools for establishing attainable targets and prescribes that
 performance targets should be optimistic, but realistic. The need for realistic targets is
 critical to effective performance monitoring since their absence, as in the case of this
 project, prevents the mission from having an appropriate basis on which to measure
 the project’s accomplishments to date and assess its performance.

The DCA Project was established to promote the development of Albanian SMEs,
primarily by improving their access to financial capital (i.e., bank loans). This was
achieved through a $12 million loan guarantee to an international financial institution
(Raiffeisen Bank), which offered DCA-guaranteed loans to SMEs starting in May 2006.

In reviewing the bank’s performance since then, the bank did not appear to be achieving
its expected results with regard to the amount of loans awarded to SMEs with actual
reported loan activity falling short of what was originally planned and specified in the
bank’s accepted proposal. In this proposal, the bank projected disbursing 44 loans,
valued at 6 million euros, by the end of fiscal year 2007; however, only 23 loans,
totaling 2.9 million euros, had actually been disbursed as of this date.

After further review, however, the audit determined that the bank was, in fact, making
satisfactory progress with regard to its loan activity, but that the original performance
targets it had established were inappropriate and overly aggressive. Using information
provided by USAID’s Office of Development Credit in Washington, DC, which included
typical loan utilization targets based on industry standards, the original performance
targets established by Raiffeisen Bank were considered unrealistic since they greatly
exceeded these standards. Although the Mission approved the original targets specified
in the bank’s proposal, the project officer involved was unaware at the time that these
projections were unrealistic.

Section 5.1 of Automated Directives System (ADS) 200 Supplemental Reference, The
Performance Management Toolkit, provides guidance on establishing performance
targets for measuring results and prescribes that targets “be optimistic, but realistic” with
special care taken not to set the targets outside of reasonable expectations.

Appropriate, realistic targets are critical to effective performance monitoring, as they
provide the Mission with an appropriate basis from which to measure the program’s
accomplishments and assess its performance, thereby providing an accurate picture of
the activity’s true performance to date. Unrealistic targets will only serve to undermine
this effort and, as in the case of this project, make it difficult to ascertain whether actual
results reflect positive progress or potential problems that need to be addressed.



                                                                                           10
To ensure that appropriate and realistic performance targets are established and used to
measure progress during the remainder of this project’s implementation period, we are
making the following recommendation:

       Recommendation No. 1: We recommend that USAID/Albania, in
       coordination with its implementing partner (Raiffesein Bank), develop
       revised loan guarantee utilization targets that are consistent with industry
       standards to ensure that the project maintains reasonable and attainable
       targets for the remainder of the project period.

Following the audit fieldwork, USAID/Albania took immediate action to address the
above audit recommendation. Specifically, the Mission coordinated with Raiffesein Bank
in developing a set of revised loan utilization targets that covered the entire project
period and were more in line with industry standards. Upon receiving the revised targets
from the bank, the Mission forwarded them to USAID’s Office of Development Credit in
Washington, DC, where the targets were reviewed and found to be reasonable given the
banking realities and amount of loan activity in Albania. With revised loan utilization
targets now in place, we believe that the mission’s actions have satisfactorily addressed
our concerns in this area.




                                                                                      11
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Albania indicated that it concurred with the
audit findings and stated that it would continue to undertake efforts to ensure the lasting
impact of its economic assistance program in Albania. Based on the corrective action
taken prior to this response (immediately subsequent to the audit fieldwork), which
addressed the audit’s concerns, and documentation furnished by the mission as
evidence of this action, the audit team considers that final action has been taken on this
recommendation upon issuance of this report.

The mission’s comments are included in their entirety as appendix II. (See page 15.)




                                                                                        12
                                                                                Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General in Frankfurt, Germany, audited USAID/Albania’s
Economic Restructuring and Agriculture Development Program (the Program) activities
in accordance with generally accepted government auditing standards. The purpose of
this audit was to determine whether the Program’s activities had achieved their planned
results and assess the overall impact of these activities.

At the time of our audit, the Program consisted of seven separate Mission-managed
projects, relating primarily to economic growth. In addition, the Program’s portfolio
included several other projects, which were excluded from the scope of this audit.
These included (1) an agricultural project that was initiated just prior to the start of our
audit and not deemed appropriate for testing purposes, since it was still in the start-up
phase, and (2) a regional energy component that was being managed by USAID’s
Europe and Eurasia Bureau in Washington, DC.

For each of the seven projects reviewed, we selected the implementing partners’ most
recent annual work plan and identified, if possible, all planned activities in the work plan
for the period October 1, 2006 to September 30, 2007. Based on our examination of the
work plans, we identified a total of 226 planned activities, of which 78 (35 percent) were
selected for testing and reviewed to verify whether the activities were completed and
expected results were achieved.

In planning and performing the audit, we gained an understanding of the Mission’s
existing management controls and performance measures used in monitoring the
progress achieved under the Program. Specifically, we reviewed the following:

   	 USAID/Albania’s current Performance Management Plan

   	 Results framework for the strategic objective supported by this program

   	 Reporting provisions and scopes of work contained in the contracts and grant
      agreements for the Program’s implementing partners

   	 The Mission’s fiscal year 2007 Federal Managers’ Financial Integrity Act
      certification and results

Additionally, we considered relevant prior findings from a similar audit completed at
USAID/Armenia. We also reviewed the Mission’s performance indicators for measuring
progress under the Program, as well as the performance data collected and reported
under these indicators in developing the Mission’s Annual Operating Report for fiscal
year 2006.

We conducted the audit at the USAID/Albania Mission in Tirana, Albania, and visited
selected activity sites located in the Albanian towns and cities of Tirana, Kashar,
Elbasan, Divjaka, and Lushnje. Fieldwork for this audit was performed from September
24 to October 8, 2007, and from October 29 through November 21, 2007.

                                                                                         13
                                                                               Appendix I


Methodology
To form a conclusion about whether the Program’s activities were achieving their
planned results, we first compared the planned activities outlined in the implementing
partners’ annual work plans to their respective contracts and agreements to ensure that
the planned activities were consistent with the tasks and overall objectives specified in
the implementer’s scope of work. We then selected a judgmental sample of key
activities under each project and compared actual accomplishments under these
activities against planned results from the annual work plans to verify whether the
activities had been completed and expected results achieved. This comparison entailed
reviewing the progress of each activity as reported in the implementer’s quarterly and
annual progress reports, as well as examining supporting records providing evidence
that the activity had, in fact, been completed. Our verification also relied on visits to
selected activity sites and interviews with the implementers’ staff. Based on the
collective results, we verified whether the sampled activities were achieving their
expected results, as well as whether the projects under which these activities were being
funded were achieving their overall objectives. In assessing the impact of the activities,
we relied on reported performance data related to selected performance indicators at the
intermediate result and strategic objective levels (e.g., number of people hired, number
of loans issued, increases in the quantity and value of nonagricultural exports).

To assess whether sampled project activities had achieved or were achieving their
expected result, we established a materiality threshold of 75 percent. That is, if a
sampled activity was determined to have achieved at least 75 percent of its planned
output, the activity was judged to be either completed or making satisfactory progress
toward achieving its expected result.

In addition to the above analysis, we reviewed applicable policies, procedures, and
management controls related to the management for results, including ADS 202, ADS
203, and Bureau Operating Procedure 311.




                                                                                       14
                                                                                 Appendix II



MANAGEMENT COMMENTS 




DATE:                February 6, 2008

TO:                  Gerard M. Custer, Regional Inspector General, Frankfurt

FROM:                Edward T. Landau, USAID/Albania Mission Director /s/

SUBJECT:             Audit of USAID/Albania’s Economic Restructuring and Agriculture
                     Development Program (Report No. 8-182-08-001-P)




We appreciate the opportunity to review the draft report on the Audit of USAID/Albania’s
Economic Restructuring and Agriculture Development Program. We agree with the audit
findings and we will continue undertaking efforts to ensure the lasting impact of our
economic assistance program in Albania.

We wish to thank the auditors for their assistance and appreciate their professionalism
and constructive attitude in conducting the audit.




U.S. Agency for International Development
U.S. Embassy                                Tel: 011-355-4-247285
Rr. Elbasanit, No. 103                      Fax:011-355-4-233520
Tirana, Albania                             www.usaid.gov/al




                                                                                          15
